Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Township of Cherry Hill, New Jersey, Police Department
GR-70-00-009January 10, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Township of Cherry Hill Police Department (Cherry Hill).  The purpose of the grants is to enhance community policing.  Cherry Hill was awarded a total of $965,757 to hire 3 new police officers and redeploy the equivalent of 23.1 existing full-time officers from administrative duties to community policing.
	
We reviewed Cherry Hill's compliance with eight essential grant conditions.  We found Cherry Hill to be in compliance with grant conditions for budgeting for officers, hiring of officers, local matching funds, reimbursement requests, planning for retention of officers, community policing activities, and redeployment of officers to community policing.   However, we found weaknesses in periodic status reports.  

These items are discussed in greater detail in the Findings and Recommendation section of the report.  Our audit objectives, scope and methodology appear in Appendix I.